REVIEW OF THE PACIFIC RIM REGION
   PUBLIC BUILDINGS SERVICE
      GOLDEN GATE OFFICE
REPORT NUMBER A060232/P/9/R07003
          JUNE 11, 2007
                       REVIEW OF THE PACIFIC RIM REGION
                          PUBLIC BUILDINGS SERVICE
                             GOLDEN GATE OFFICE
                       REPORT NUMBER A060232/P/9/R07003


                             TABLE OF CONTENTS

                                                          Page

REPORT LETTER                                              1

EXECUTIVE SUMMARY                                          2

INTRODUCTION                                               3

    Background                                             3

    Objectives, Scope and Methodology                      3

RESULTS OF REVIEW                                          5

    Results in Brief                                       5

    Findings and Recommendations                           5

           Finding 1 - Procurement Documentation           5

           Finding 2 - Contract Administration             7

    Internal Controls                                      7

APPENDICES

    Regional Administrator’s Response to Draft Report      A-1

    Report Distribution                                    B-1




                                         1
                        REVIEW OF THE PACIFIC RIM REGION
                           PUBLIC BUILDINGS SERVICE
                              GOLDEN GATE OFFICE
                        REPORT NUMBER A060232/P/9/R07003


                                 EXECUTIVE SUMMARY

PURPOSE

The objectives of this review were to determine whether the Public Buildings Service,
Golden Gate Office (GGO): (1) made procurements that were prudent and in accordance
with laws, regulations, and established policy and controls; and (2) effectively performed
contract administration duties.

BACKGROUND

The GGO is one of five field offices under the direction of the San Francisco Service
Center. The office is located at the Phillip Burton Federal Building and United States Court
House and is one of two field offices located in San Francisco, California. Each of the five
field offices is responsible for managing government owned buildings and/or leased
spaces. With a staff of 12 government employees and one contract employee, the GGO
oversees nearly 2.3 million square feet of rentable space in five government owned and 24
leased buildings located throughout the city.

RESULTS OF REVIEW

Generally, the review determined that the GGO adhered to applicable laws, regulations
and established policy and procedures when making purchase card transactions;
adequately controlled contract employee identification badges; fully documented indefinite
delivery/ indefinite quantity (IDIQ) construction contract task orders; and sufficiently
managed the preventive building maintenance program. However, the file documentation
was inadequate for three sole source Reimbursable Work Authorizations (RWA). In
addition, monthly surveillance reports for janitorial services were not prepared after
February 2006. As a result of the deficiencies, we were unable to determine whether the
government received the quality and quantity of goods that were paid for sole source
RWAs and janitorial services.

RECOMMENDATIONS

We recommend that sole source awards must be adequately documented to support
the government’s justification for the absence of competition and its evaluation of fair
and reasonable pricing. We also recommend that the GGO complete the required
monthly surveillance reports for janitorial contracts to ensure performance quality levels
are achieved.



                                             2
                       REVIEW OF THE PACIFIC RIM REGION
                          PUBLIC BUILDINGS SERVICE
                             GOLDEN GATE OFFICE
                       REPORT NUMBER A060232/P/9/R07003


                                    INTRODUCTION

Background

As part of the General Services Administration (GSA), Office of Inspector General’s
fiscal year 2007 Annual Audit Plan, we conducted a review of the Public Buildings
Service (PBS), Golden Gate Office (GGO), in the Pacific Rim Region. GSA has the
responsibility to provide fully serviced space to Government agencies in federally owned
and leased buildings. PBS field offices and property management centers (PMC),
located nationwide, fulfill the needs and requests of Government agencies that occupy
space in the buildings.

The GGO is one of five field offices under the direction of the San Francisco Service
Center. The office is located at the Phillip Burton Federal Building and United States Court
House and is one of two field offices located in San Francisco, California. Each of the five
field offices is responsible for managing its assigned government owned buildings and/or
leased spaces. With a staff of 12 government employees and one contract employee, the
GGO oversees nearly 2.3 million square feet of rentable space in five government owned
and 24 leased buildings located throughout the city


Objectives, Scope and Methodology

The primary objectives of the review were to determine if:

   (1) The field office made procurements that were prudent and in accordance with
       laws, regulations, and established policy and controls; and

   (2) The field office effectively performed contract administration duties and assured
       that the quality and quantity of goods and services received were what the
       Government ordered and paid for.

To accomplish the audit objectives, we:

   1. Reviewed the Federal Acquisition Regulations (FAR) addressing Contracting
      Officer Responsibility (FAR 37.103), Performance-Based Contracting
      (FAR 37.600), Certificate of Independent Price Determination (FAR 52.203-2),
      Davis-Bacon Act (FAR 52.222-6), GSA Order Guidance on Use of the Credit
      Card for Purchases (Chief Financial Officer 4200.1), Simplified Acquisition
      Procedures (FAR 13.106), and Circumstances Permitting Other Than Full and
      Open Competition (FAR 6.302);


                                             3
   2. Reviewed procurement documentation for all purchase card transactions valued
      at $3,408 made by the field office during the June 2006 statement period and
      physically verified 20 credit card items purchased by the field office and valued at
      $8,892 during FY 2005 and FY 2006;

   3. Physically inspected five reimbursable work authorizations construction projects
      valued at $152,846 along with two building operations construction projects
      valued at $26,335;

   4. Obtained security clearance information for 60 contract employees under two
      janitorial contracts at the Phillip Burton Federal Building and United States Court
      House;

   5. Reviewed procurement documentation for three sole source contracts valued at
      $114,813 made by the field office during FY 2006;

   6. Evaluated four IDIQ construction task orders valued at $325,300;

   7. Reviewed two janitorial services contracts at the Phillip Burton Federal Building
      and United States Court House valued at $4,210,000; and

   8. Performed onsite inspections of the work performed by two janitorial contractors
      and one operations and maintenance contractor at the Phillip Burton Federal
      Building and United States Court House.


Our review covered procurements made and contracts in effect during fiscal years 2005,
and 2006.    The review was completed in accordance with Generally Accepted
Government Auditing Standards.




                                            4
                                 RESULTS OF REVIEW

Results in Brief

Generally, the GGO’s procurements in our sample were prudent and made in accordance
with laws, regulations and established policy and controls. In addition, contract
administration for the majority of items selected for review was generally effective and
assured that the quality and quantity of goods and services received were what the
Government ordered. However, we were unable to determine whether the government
received the quality and quantity of services it paid for procurements involving sole source
RWAs and janitorial services.


Findings and Recommendations

Finding 1 - Procurement Documentation

The contract files for three sole source Reimbursable Work Authorizations (N3423286,
N3592829, and N3674226) did not contain adequate documentation in support of the
government’s evaluation of the contractor’s proposal for price reasonableness. In addition,
documentation for two of the three RWAs did not adequately support the reason as to why
only one vendor was considered in the contract award. According to a GGO official, the
procurement deficiencies were due to oversight. Without adequate file documentation, we
were unable to determine whether the government received fair and reasonable pricing for
the RWAs. In addition, use of sole source procurement awards without proper justification
may undermine competition, leading to higher costs.

RWA N3423286: This RWA involved a sole source procurement valued at $21,768 to
reconfigure furniture workstations for the United States Bankruptcy Court. Review of the
procurement file disclosed that selecting the incumbent contractor was based on
convenience and past performance. Court officials felt that sole sourcing the RWA using
the incumbent contractor was an efficient and effective means to procure services
especially when they were quite satisfied with the incumbent’s work on a prior project.
FAR 13.106-1(b)(1) allows contracting officers to solicit from one source on the condition
that (1) purchases do not exceed the simplified acquisition threshold of $100,000 and
(2) if the contracting officer determines that the circumstances of the contract action deem
only one source reasonably available. However, a statement documenting the reason for
the absence of competition if only one source is solicited is required according to
FAR 13.106-3(b)(3)(i). We found no evidence to support the need for sole sourcing the
RWA. In addition, there was no indication in the contract file to determine whether the
GGO officials agreed with the court’s preference for a sole source award.

The contract file did not include documentation to support that the government received a
fair and reasonable price for this RWA. FAR 13.106-3(a)(2) requires that documentation
on price reasonableness must be included in the file if only one offer is received in
response to a solicitation. Documentation such as the independent government estimate



                                             5
was not included in the contract file to establish that the price for services to reconfigure
the workstations was fair and reasonable.

RWA N3592829: This RWA involved a sole source procurement of $80,227 to purchase
and install air conditioning equipment for the United States District Court Review. The
procurement file disclosed that this project adequately documented the government’s cost
estimate and the contractor’s quote, which included four alternative amounts. However,
there was no evidence in the procurement file to explain how price reasonableness was
determined given the different cost amounts proposed for the project.

RWA N3674226: This RWA involved a sole source procurement of $12,767 to install
signage for the United States Bankruptcy Court. Review of the procurement file disclosed
that the courts requested the purchase and installation of signage within the court’s
assigned space using the same contractor who had performed a prior installation of signs
at the courthouse. Because the Court required that the new signs be identical to pre-
existing signs, the incumbent contractor was awarded the RWA as a sole source.
FAR 13.106-1(b)(1) allows contracting officers to solicit from one source on the condition
that (1) purchases do not exceed the simplified acquisition threshold of $100,000 and
(2) if the contracting officer determines that the circumstances of the contract action deem
only one source reasonably available. However, a statement documenting the reason for
the absence of competition if only one source is solicited is required according to
FAR 13.106-3(b)(3)(i). We found no evidence to support the need for sole sourcing the
RWA. There was also no documentation in the contract file that indicated whether the
GGO officials agreed with the court’s preference for a sole source award.

In addition, the contract file did not include documentation to support that the government
received a fair and reasonable price for this RWA. FAR 13.106-3(a)(2) requires that
documentation on price reasonableness must be included in the file if only one offer is
received in response to a solicitation. Documentation such as the independent
government estimate was not included in the contract file to establish that the price for
purchasing and installing signage was fair and reasonable.

Recommendations

We recommend that the Regional Administrator (9A) direct the Assistant Regional
Administrator for PBS to adequately document sole source procurements by:

1A.    Requiring contracting officers to include detailed explanation that necessitated a
       sole source procurement; and

1B.   Instructing the contracting officers to provide adequate support for their evaluation
      of fair and reasonable pricing.




                                             6
Finding 2 - Contract Administration

Based on the contracts awarded for janitorial services, the GGO is required to prepare
monthly surveillance reports. However, for two janitorial contracts these monthly reports
were not completed. Because we were unable to determine the quality of services
provided, the GGO may have paid janitorial service contractors without full assurance that
the quality of services met contract standards.

We reviewed two janitorial service contracts (GS09P05KSD0032 and GS09P05KSD0028)
at the Phillip Burton Federal Building and United States Court House. Both janitorial
contracts required the completion of a monthly report that summarized the contractor’s
performance based on criteria set forth in the Quality Assurance Surveillance Plan
(QASP). The QASP ensures identification of unacceptable performance with timely follow-
up to correct deficiencies. However, the required monthly surveillance reports from
March 2006 to September 2006 were not completed. Due to other contracting duties, the
contracting officer’s representative indicated that she had no time to prepare the monthly
reports. Because the surveillance reports were not prepared, we were unable to
determine if janitorial services were performed at the levels required by the terms of the
contract.

Recommendation

We recommend that the Regional Administrator (9A) direct the Assistant Regional
Administrator for PBS to:

2.    Require the Contracting Officer’s Representative to prepare written monthly
      surveillance reports for janitorial contracts.

Management Comments

The Regional Administrator (9A) agreed with our findings and recommendations and is
in the process of taking corrective action. The Regional Administrator’s comments are
included as Appendix A to this report.


Internal Controls

We assessed the internal controls relevant to certain aspects of the field office
operations. We concluded that those internal controls, with the exception of the findings
noted above, were effective in providing assurance that government assets were
protected.




                                            7
                       REVIEW OF THE PACIFIC RIM REGION
                          PUBLIC BUILDINGS SERVICE
                             GOLDEN GATE OFFICE
                       REPORT NUMBER A060232/P/9/R07003


                               REPORT DISTRIBUTION

                                                                     COPIES

Regional Administrator (9A)                                             3

Commissioner, Public Buildings Service (P)                              1

Audit Follow-up and Evaluation Branch Chief (BECA)                      1

Chief Financial Officer (B)                                             2

Assistant Inspector General for Auditing (JA)                           1

Director, Policy Plans and Operations Staff (JAO)                       1

Deputy Assistant Inspector General for Real Property Audits (JA-R)      1

Regional Inspector General for Investigations (JI-9)                    1




                                           B-1
